fas
2311 Douglas Street CA L 1 Bri £ E-Mail Address:
ega riers

Omaha, Nebraska 68102-1214 Rat. 1689 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-414

FIRST MIDWEST BANK, as Guardian of the
Estate of Michael D. LaPorta,
Petitioner,

v.

CITY OF CHICAGO, ILLINOIS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF AMICUS
CURIAE BLACK COPS AGAINST POLICE BRUTALITY IN SUPPORT OF PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3358 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 7th day of October, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska Zz.
RENEE J. GOSS 9. Qudawr , CLL Y
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41545
